November 2005
Report No. 06-001


FDIC’s Equal Employment Opportunity
Discrimination Complaint Process




        EVALUATION REPORT

             eral
                                                                                           Report No: 06-001
                                                                                             November 2005


                                           FDIC’s Equal Employment Opportunity Discrimination
                                           Complaint Process

                                           Results of Evaluation

Background and Purpose of                  ODEO reported that the volume of discrimination complaints filed
Evaluation                                 annually and the discrimination complaints case load have significantly
                                           decreased. ODEO management attributes these decreases to a
The Office of Diversity and Economic       combination of factors, including corporate downsizing and the
Opportunity (ODEO) implements the          implementation of an alternative dispute resolution program. However,
discrimination complaint resolution        we noted that ODEO’s overall average case processing time frames
process in accordance with Title 29 of     have increased by 39 percent since 1996 to 986 days, whereas other
the Code of Federal Regulations, Part      federal agencies have experienced a 24-percent increase in case
1614, Federal Sector Equal                 processing time frames over this same period, averaging 469 days.
Employment Opportunity, effective          While ODEO management has expressed that a number of factors in
November 9, 1999, which mandates           the process are outside of its control, those factors are not unique to
specific time frames for federal           the FDIC and may not explain why the Corporation’s case processing
agencies to process, investigate, and      time frames exceed the federal sector average.
issue agency decisions on
discrimination complaints.                 Additionally, ODEO is currently without reliable data in its
                                           discrimination complaint case tracking system. During 2004, ODEO
We conducted this review as a follow-      converted discrimination complaint data from a legacy system to a new
up to evaluations of the FDIC’s Equal      commercial-off-the-shelf system. We concluded that the data
Employment Opportunity (EEO)
                                           conversion effort was not adequately managed, resulting in unreliable
discrimination complaint resolution
                                           data in the new system. The lack of a reliable case tracking system
process that we performed in 1998
and in 2000 with the FDIC’s Office of
                                           could hamper ODEO’s ability to effectively manage its complaint case
Enterprise Risk Management,                load and to efficiently meet internal and external reporting
formerly the Office of Internal Control    requirements. Further, ODEO cannot readily respond to ad hoc
Management.                                requests for information, and there is an increased vulnerability for
                                           reporting errors using manually gathered information.
The objective of this review was to
evaluate the FDIC’s discrimination         ODEO maintained that reliable data could be extracted from the new
complaint resolution process and           case tracking system to produce accurate, required reports in a
management of the FDIC’s formal            reasonable amount of time. Nevertheless, ODEO has initiated action
complaint case load. However, we           to improve the reliability of the system.
were unable to accomplish our
objective due to data reliability issues   We reported findings related to case processing time frames and data
associated with ODEO’s case                reliability in our prior evaluations. The FDIC needs to devote renewed
tracking system. We focused,               and sustained management attention to this program and ensure that
instead, on ODEO’s conversion to a         ODEO promptly and effectively improves the reliability of its case
new complaint tracking system. We          tracking system.
limited our scope to presenting, not
validating, ODEO’s case processing         Recommendations and Management Response
statistics and ODEO’s perspective on
the statistics.
                                           We recommended that ODEO (1) develop a formal remediation plan to
                                           address data reliability of the case tracking system that establishes
                                           milestones and identifies appropriate and sufficient resources to
                                           complete the remediation in a timely and effective manner and
To view the full report, go to             (2) arrange for an independent follow-up review of ODEO’s compliance
www.fdicig.gov/2006reports.asp             with EEO case processing time frames, following remediation of the
                                           case tracking system data reliability issues.

                                           Management agreed with both of our recommendations.
                            TABLE OF CONTENTS

BACKGROUND                                                                  1

EVALUATION RESULTS                                                          2

Decrease in Volume of Discrimination Complaints and Case Load               3

Increase in Case Processing Time Frames                                     3

Tracking and Reporting Discrimination Complaints Data                       5

     Historical Efforts to Implement a Case Tracking System                 5

     System Development Life Cycle (SDLC) and Data Conversion               6

     Data Reliability and ODEO Remediation Effort                           7

CONCLUSION                                                                  8

RECOMMENDATIONS                                                             8

CORPORATION COMMENTS AND OIG EVALUATION                                     8

APPENDIX I:   OBJECTIVE, SCOPE, AND METHODOLOGY                            10

APPENDIX II: OVERVIEW OF THE FEDERAL SECTOR DISCRIMINATION
COMPLAINT PROCESS                                                          12

APPENDIX III: CORPORATION COMMENTS                                         13

APPENDIX IV: MANAGEMENT RESPONSE TO RECOMMENDATIONS                        17

FIGURES

Figure 1: FDIC EEO Case Load and Complaints Filed                           3

Figure 2: Average Number of Processing Days for All Complaint Closures      4

Figure 3: ODEO Efforts to Implement a Replacement Case Processing System    6
                                 Acronyms

AJ       Administrative Judge
C.F.R.   Code of Federal Regulations
COTS     Commercial-off-the-Shelf
DIT      Division of Information Technology
EEO      Equal Employment Opportunity
EEOC     Equal Employment Opportunity Commission
FAD      Final Agency Decision
FDIC     Federal Deposit Insurance Corporation
FY       Fiscal Year
GAO      Government Accountability Office
HRT      Human Resources Technologies, Inc.
ODEO     Office of Diversity and Economic Opportunity
OERM     Office of Enterprise Risk Management
OIG      Office of Inspector General
SDLC     System Development Life Cycle
Federal Deposit Insurance Corporation                                                    Office of Audits
801 17th Street, NW, Washington, DC 20434                                                Office of Inspector General

DATE:                               November 4, 2005

MEMORANDUM TO:                      D. Michael Collins
                                    Director, Office of Diversity and Economic Opportunity




FROM:                               Russell A. Rau [Electronically Produced Version;   original signed by Russell A. Rau]
                                    Assistant Inspector General for Audits

SUBJECT:                            FDIC’s Equal Employment Opportunity Discrimination Complaint
                                    Process (Report No. 06-001)

This report presents the results of our evaluation of the FDIC’s Equal Employment Opportunity
(EEO) discrimination complaint resolution process. The objective of this review was to evaluate
the FDIC’s discrimination complaint resolution process and management of the FDIC’s formal
complaint case load. However, we were unable to accomplish our objective due to data
reliability issues associated with the Office of Diversity and Economic Opportunity’s (ODEO)
discrimination complaint tracking system. We focused, instead, on ODEO’s conversion to a
new complaint tracking system. We limited our scope to presenting, not validating, ODEO’s
case processing statistics and ODEO’s perspective on the statistics. Additional details on our
objective, scope, and methodology are in Appendix I.

Background
ODEO is responsible for implementing the discrimination complaint resolution process required
by Title 29 of the Code of Federal Regulations, Part 1614, titled, Federal Sector Equal
Employment Opportunity, effective November 9, 1999, which mandates specific time frames for
federal agencies to process, investigate, and issue agency decisions on discrimination
complaints. These regulations are included in the Equal Employment Opportunity
Commission’s (EEOC) policies, procedures, and guidance published in Management
Directive 110 (EEO MD-110), effective November 1999, for the FDIC.

ODEO issues annual reports to the EEOC on its progress in resolving discrimination complaints
and statistical information relating to the FDIC’s EEO complaints to the Congress on an annual
fiscal year basis under the Notification and Federal Employee Antidiscrimination and Retaliation
Act of 2002 (No Fear Act). The FDIC’s procedures for initiating and processing EEO complaints
of alleged employment discrimination are contained in FDIC Circular 2710.2, EEOC
Discrimination Complaint Procedures, effective December 3, 2003. Appendix II depicts the
discrimination case resolution process.

We conducted this review as a follow-up to evaluations1 we performed of the FDIC’s EEO
discrimination complaint resolution process in 1998 and in 2000 with the Office of Enterprise
Risk Management (OERM).2 Those evaluations reported noncompliance with EEOC complaint
processing time frames and made several recommendations to improve the FDIC’s
discrimination complaint process.

1
    Information about prior evaluation reports is in Appendix I.
2
    Formerly the Office of Internal Control Management.
Evaluation Results
ODEO reported that the volume of discrimination complaints filed annually and the
discrimination complaint case load have decreased significantly. ODEO management attributes
these decreases to a combination of factors, including agency downsizing and the
implementation of an alternative dispute resolution program. However, we noted that ODEO’s
overall average case processing time frames have increased by 39 percent since 1996 to 986
days, whereas other federal agencies have experienced a 24-percent increase in case
processing time frames for the same period, averaging 469 days. While ODEO management
has expressed that there are a number of factors in the process outside of its control, those
factors are not unique to the FDIC and may not explain why the Corporation’s case processing
time frames exceed the federal sector average. The lengthy case processing time frames result
in the FDIC not providing its employees with an efficient and effective process for resolving
discrimination complaints and possibly not complying with EEOC policies.

We could not independently verify or perform our own analysis of the FDIC’s discrimination
complaint statistics or case processing time frames because ODEO is currently without reliable
data in its discrimination complaint case tracking system. During 2004, ODEO worked with the
Division of Information Technology (DIT)3 and a vendor to convert discrimination complaint data
from a legacy case tracking system to EEONet.4 We concluded that the data conversion effort
was not adequately managed and did not accurately map the data fields between the two
systems, resulting in unreliable data in EEONet.

As a result, ODEO was not able to readily provide information on open and closed cases to
allow us to meet our evaluation objective. Moreover, the lack of a reliable case tracking system
hampers ODEO’s ability to effectively manage its complaint case load and to efficiently meet
internal and external reporting requirements. Further, ODEO cannot readily respond to
ad hoc requests for information, and there is an increased vulnerability for error in manually
gathering information from case files and other sources of information to respond to information
requests and to develop required reports.

ODEO maintained that reliable data could be extracted from EEONet to produce accurate,
required reports in a reasonable amount of time. Nevertheless, ODEO has contracted with a
vendor to input and validate missing data in EEONet. ODEO has not, however, developed a
formal remediation plan that establishes milestones and identifies appropriate and sufficient
resources to complete the remediation in a timely manner.




3
  Formerly the Division of Information Resources Management.
4
  According to the vendor’s Web Site, EEONet is an EEO case management system built to assist EEO
managers and counselors throughout an organization in managing all aspects of information and program
management related to EEO complaints and resolutions. Built to support the EEOC reporting
requirements, EEONet allows automated generation of the reports required by EEOC as well as a variety
of other reports and documentation that can be customized to user and management requirements.




                                                 2
Decrease in Volume of Discrimination Complaints and Case Load

ODEO has reported that the volume of discrimination complaints filed annually has decreased
64 percent from 97 cases filed during 1996 to 35 cases filed in 2004. Further, the Corporation’s
discrimination complaints case load has decreased by 65 percent from 228 open cases in 1996
to 79 open cases in 2004. Figure 1 below details the number of EEO discrimination complaint
cases filed compared to the average number of cases in process from 1996 through 2004.

    Figure 1: FDIC EEO Case Load and Complaints Filed

                        FDIC EEO Caseload and Complaints Filed

      250
                       228
                                              216
      200
                                   190 195
                                                    176
                                                                                     FDIC Complaints
      150                                                 150
                                                                                     Filed
                             113                                                     FDIC Caseload
      100              97          102                          99
                                         84   89
                                                                     79
       50                                                                      Note: FDIC case load
                                                    39          32 35
                                                          26                   information for 1997
         0                                                                     was unavailable.
                95

                96

                97

                98

                99

                00

                01

                02

                03

                04
              19

              19

              19

              19

              19

              20

              20

              20

              20

              20




    Source: EEOC’s Annual Report on the Federal Work Force, Fiscal Year 1996-2004.

ODEO management attributes these decreases to a combination of:

•      an overall reduction in FDIC staff through downsizing;
•      the implementation of an Alternative Dispute Resolution program;5
•      changes in corporate culture resulting from management’s commitment to the principles
       outlined in the FDIC’s Strategic and Diversity plans;
•      an increased use of grievance procedures to resolve compensation-related disputes; and
•      a November 1999 change in the EEOC’s regulations6 allowing EEO complainants to amend
       a previously filed complaint prior to the conclusion of an investigation into the complaint, to
       include issues or claims that are like or related to those raised in the previously filed
       complaint rather than requiring an EEO complainant to file a new complaint.

Increase in Case Processing Time Frames

ODEO’s overall average case processing time frames have increased by 39 percent since
1996, from 707 days in 1996 to 986 days in 2004 despite a substantial decrease in the case
load and the number of complaints filed as discussed earlier. During the same time frame,
other federal agencies have experienced a 24-percent increase in case processing time frames.

5
  The program implements a spectrum of resolution processes, including negotiation, facilitation,
mediation, and evaluation during the informal discrimination pre-complaint process to attempt to resolve
more claims earlier in the process, helping to reduce the number of formal complaints.
6
  29 C.F.R. § 1614.106(d).




                                                                3
Figure 2 compares the average number of processing days for all EEO discrimination complaint
closures for the FDIC and the federal government during fiscal year (FY) reporting periods 1996
through 2004.

Figure 2: Average Number of Processing Days for All Complaint Closures

                1200
                1000
                 800
                 600
                 400
                 200
                   0
                             1996 1997 1998 1999 2000 2001 2002 2003 2004
           AVG DAYS - FDIC    707       756      757       744       607      752    1131   1125   986
           AVG DAYS - ALL     379       391      384       423       472      464    418    541    469



    Source: EEOC's Annual Report on the Federal Work Force, Fiscal Year 1996-2004.


ODEO management identified several factors that increase discrimination complaint processing
time frames and that were out of ODEO’s control:

•      Class Complaints - Class complaints of discrimination placed in abeyance and awaiting an
       Administrative Judge’s (AJ) decision on the parameters and definition of the class are
       included in the EEOC’s calculation of average number of days to resolve a discrimination
       complaint. ODEO must also hold in abeyance other individual discrimination complaints
       asserting the same basis7 of discrimination as class complaints until the EEOC rules on the
       certification of the class complaint. ODEO had three class complaints from 2001 through
       2004.

•      Hearings – The complainant has the right to request a hearing before an EEOC AJ. ODEO
       asserts that complaints awaiting a hearing by an AJ are outside of its control. The EEOC
       reported that the average government-wide processing time for hearings was 355 days
       during 2004.

•      Amended Cases – As discussed earlier, a 1999 change to EEOC regulations allowed
       complainants to amend previously filed complaints to include like or related issues and
       claims. ODEO asserted that while this change resulted in fewer new complaints being filed,
       it increased the number of days required to resolve discrimination complaints.

These factors may explain time frame increases but are not unique to the FDIC and may not
explain why the FDIC’s case processing time frames continue to exceed the federal sector
average. Lengthy case processing time frames result in an FDIC process that is not efficient


7
  The basis for a discrimination complaint under an equal employment statute includes race, color,
national origin, sex, religion, reprisal, age, or disability.




                                                                 4
and effective in resolving employee discrimination complaints and potential FDIC
noncompliance with EEOC policies.

Tracking and Reporting Discrimination Complaints Data

ODEO is currently without reliable data in its discrimination complaint case tracking system due
to an inadequate data conversion effort. The lack of reliable data could hamper ODEO’s ability
to effectively manage its complaint caseload and to efficiently meet internal and external
reporting requirements. Further, ODEO cannot readily respond to ad hoc requests for
information, and there is an increased vulnerability for error in manually gathering information
from case files to respond to information requests and to develop required reports.

EEOC issued Management Directive (EEO MD-715), effective October 2003, to provide policy
guidance and standards for establishing and maintaining effective affirmative EEO programs
and affirmative action programs. EEO MD-715 presents essential elements of model agency
EEO programs, including the use of a complaint tracking and monitoring system that permits the
agency to identify the location, status, and length of time elapsed at each stage of the agency’s
complaint resolution process and that presents information necessary to analyze complaint
activity and identify trends.

EEOC also issued a federal sector report entitled, Attaining a Model Agency Program:
Efficiency, which states that an accurate, accessible, verifiable, and comprehensive case
tracking system is essential for managing an effective and timely complaint processing program.
The report also noted that the lack of an effective and accurate data collection system increases
complaint processing time, impairs management's ability to identify and correct deficiencies in
complaint processing, and obscures the actual workload of the EEO staff.

Historical Efforts to Implement a Case Tracking System

In 1998, ODEO began using a commercial-off-the-shelf (COTS) product, called EEOMAS, as
ODEO’s discrimination complaint case tracking system. ODEO customized EEOMAS to
manage the discrimination complaints process and track FDIC discrimination complaint
information. In 1999, ODEO, OERM, and the Legal Division conducted an extensive
100-percent file review to ensure that data within EEOMAS were accurate. From 1999 through
2004, OERM conducted limited data reliability reviews of EEOMAS with positive results. ODEO
began using standard and ad hoc EEOMAS reports to track and manage the complaint work
load and report elapsed days statistics to ensure that ODEO could meet internal and external
reporting requirements.

While EEOMAS provided valuable information, the system had a number of deficiencies that
made it unacceptable for long-term use. For example, DIT tested EEOMAS in March 2001 for
Windows 2000 compatibility and determined that EEOMAS would not operate in the new FDIC
system architecture. DIT researched various tracking system options for ODEO and found that
most government agencies built their own systems due to the lack of available Web-based
COTS products on the market. DIT suggested in-house development of a tracking system for
ODEO. However, ODEO identified a COTS product called Visual Powerfiles that met ODEO’s
expectations. Visual Powerfiles was purchased in 2002 and was placed into production in 2003.
Due to problems with the vendor, the product was taken off line, and DIT and ODEO began
researching alternative solutions. In 2004, ODEO ultimately purchased EEONet from Human
Resources Technologies, Inc. (HRT), which supports the product, as ODEO’s official




                                               5
discrimination complaint case tracking system. Figure 3 depicts events in ODEO’s search for a
discrimination complaints processing system.

Figure 3: ODEO Efforts to Implement a Replacement Case Processing System

                                   ODEO System Acquisition Timeline


Operating Environment:
    Windows 95
    Windows XP
EEOMAS Software:
    DOS Based
    Windows Based
In-House Development
Visual Powerfiles
EEONet
                             98

                             98

                             99

                             99

                             00

                             00

                             01

                             01

                             02

                             02

                             03

                             03

                             04

                             04

                             05

                             05

                             06
                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-

                           n-
                         Ja

                         Ju

                         Ja

                         Ju

                         Ja

                         Ju

                         Ja

                         Ju

                         Ja

                         Ju

                         Ja

                         Ju

                         Ja

                         Ju

                         Ja

                         Ju

                         Ja
Source: Office of Inspector General (OIG) Analysis of ODEO and DIT Information and Interviews.

System Development Life Cycle (SDLC) and Data Conversion

DIT’s June 1, 2001 Project Plan that recommended a new case tracking system stated that the
search for a new case management system was being performed using the FDIC’s SDLC
approach.8 The SDLC approach notes that an alternative to in-house development is the
procurement of commercial software, but control is necessary to ensure that selected software
meets the user’s needs and that it is properly placed into operation.

DIT explained that its responsibility was to test the program’s functionality and determine
whether the program effectively operated on the FDIC’s platform without impacting other FDIC
programs. DIT indicated that the EEONet purchase agreement required HRT to install,
customize, and provide annual technical support. DIT tested EEONet in the DIT test labs before
approving EEONet for production and assisted HRT in developing user acceptance test plans
for the initial version of EEONet. However, because EEONet was a COTS product, DIT was not
involved in the actual conversion of data.

Data conversion started in May 2004, and EEONet was implemented in August 2004. The HRT
contract required HRT to perform data analysis to ensure data reliability during the conversion
and to provide the FDIC the test results. ODEO provided HRT a copy of the data files from
EEOMAS for the conversion to EEONet and identified the data fields in EEOMAS that were
customized for the FDIC in order for HRT to complete the conversion. However, it appears that
8
  The purpose of the SDLC approach is to provide a repeatable, uniform process to develop new
automated information systems and enhance or maintain existing systems, whether performed by the
FDIC or through contract agreements. Use of the SDLC approach will help ensure that systems are
developed efficiently and cost-effectively and meet user needs. The specific objectives of the FDIC’s
SDLC approach are to define the phases, activities, participants, and responsibilities in the project;
standardize the activities and product formats; identify where standard controls enter into the project; and
ensure that DIT and the user understand the SDLC process and communicate.




                                                       6
planning for the data conversion process, including mapping of data fields from EEOMAS to
EEONet, was not adequate to ensure the reliability of data in EEONet.

We verified that DIT, HRT, and ODEO participated in user acceptance testing, but we
concluded that testing focused on whether EEONet would operate in the FDIC’s information
technology environment and produce anticipated reports. Testing did not focus on whether the
converted data and reports were accurate. Although data reliability testing was required by the
HRT contract, neither DIT nor ODEO was able to provide documentation showing that HRT or
ODEO had performed such testing.

In August 2004, ODEO accepted EEONet as the discrimination complaints processing system
and operated the EEONet and EEOMAS applications in a parallel production environment. DIT
again informed ODEO in November 2004 that it had to retire EEOMAS. ODEO obtained an
extension to use EEOMAS through March 2005 when it was retired. ODEO indicated that it had
retained a backup copy of historical complaints processing data on a CD Rom, but ODEO is
unable to read the data without the EEOMAS software.

Data Reliability and ODEO Remediation Effort

ODEO characterized the data in EEONet as reliable but incomplete with respect to:
(1) historical data fields that were unique to EEOMAS that did not properly convert to EEONet
and (2) new data fields that were unique to EEONet for which EEOMAS did not contain
corresponding data. ODEO maintained that reliable data could be extracted from EEONet to
produce required reports and that reporting inaccuracies could be corrected in a matter of days.

According to guidelines published by the Government Accountability Office (GAO),9 data
reliability refers to the accuracy and completeness of computer-processed data, given the
intended purposes for use. Computer-processed data include data (1) entered into a computer
system and (2) resulting from computer processing. Data are reliable when they are complete
(they contain all of the data elements and records needed for the audit engagement) and
accurate (they reflect the data entered at the source or in source documents). Reliability also
means that for any computer processing of the data elements used, the results are reasonably
complete and accurate, meet the user’s intended purposes, and are not subject to inappropriate
alteration. Accordingly, because the conversion of discrimination complaint data resulted in
incomplete data fields and because EEONet cannot produce accurate reports without ODEO
making corrections and alterations, we concluded that the data within EEONet were unreliable
for our evaluation purposes.

In late August 2005, ODEO informed us that it had contacted HRT for assistance and was
pursuing a two-phased approach to remediate the data reliability issues within EEONet. Under
Phase I, HRT will re-convert historical data from EEOMAS to EEONet, including data fields that
were unique to EEOMAS. ODEO estimated that Phase I would take about 1 month to
complete. Phase II will involve reviewing ODEO source complaint files for information
pertaining to the new EEONet data fields (for which EEOMAS did not maintain corresponding
data) and entering that data into EEONet. ODEO did not know the extent of effort Phase II
would require or whether ODEO would require HRT’s assistance. Additionally, ODEO has not
developed a formal remediation plan, which establishes milestones and identifies sufficient
resources to complete the remediation effort in a timely manner.


9
    Assessing the Reliability of Computer-Processed Data, GAO-03-273G, dated October 2002.




                                                   7
Conclusion
ODEO’s average discrimination complaints processing time frames are more than twice the
federal sector case processing average. Further, we concluded that ODEO did not successfully
manage the data conversion effort between EEOMAS and EEONet and is currently without
reliable data in EEONet. We reported findings in both of these areas in our prior evaluations.
As a result, the FDIC needs to devote renewed and sustained management attention to this
program to ensure that ODEO’s processing of discrimination complaints complies with EEOC
requirements. In addition, the Corporation must ensure that a reliable case tracking system is in
place that assists ODEO in managing its case load and complying with internal and external
reporting requirements.

Recommendations

We recommend that the Director, ODEO:

   1. Develop a formal remediation plan to address data reliability of the case tracking system
      that establishes milestones and identifies appropriate and sufficient resources to
      complete the remediation in a timely and effective manner.

   2. Arrange for an independent follow-up review of ODEO’s compliance with EEO case
      processing time frames, following remediation of the case tracking system data reliability
      issues.

Corporation Comments and OIG Evaluation

The Director, ODEO, provided a written response dated October 27, 2005. ODEO’s response is
presented in its entirety in Appendix III. Appendix IV presents a summary of ODEO’s responses
to our recommendations.

ODEO concurred with recommendation 1. ODEO stated that it has developed a remediation
plan to address the data reliability of the case tracking system. For Phase I of the remediation
plan, ODEO contracted with HRT to identify necessary data fields left unpopulated by the data
transferal process from EEOMAS to EEONet. This phase was completed on September 30,
2005. Phase II is being completed in two parts, utilizing internal resources. The data input is
being split based on the date that complaints were filed. Data input for complaints filed in
FYs 2000 – 2005 was completed on October 19, 2005, and the targeted completion date for
data input and verification for complaints filed in FYs 1995 – 1999 is January 31, 2006.

ODEO also concurred with recommendation 2. ODEO has requested that OERM conduct a
follow-up review of ODEO compliance with case processing time frames, validate the quality of
the data in EEONet, and review the accuracy and integrity of reports. This review is scheduled
for mid-November 2005.

In addition, ODEO responded to our finding regarding increased case processing time frames.
In its response, ODEO reiterated that class action complaints and subsumed cases have
significantly impacted processing times. Nevertheless, ODEO stated that it has instituted
several measures associated with complaint investigations to improve the overall timeliness of
case processing. ODEO also noted that the EEOC had recently issued clarifying guidance for




                                                8
reporting on the processing of class action and subsumed complaints which should improve
case processing time frames.
The actions taken and planned by management are responsive to the recommendations. The
recommendations are resolved but will remain open until we have determined that agreed-to-
corrective actions have been completed and are effective.




                                             9
                                                                              Appendix I



Objective, Scope, and Methodology
The objective of this evaluation was to evaluate the FDIC’s discrimination complaint resolution
process and management of the FDIC’s formal complaints case load. However, we were
unable to accomplish our objective due to data reliability issues associated with ODEO’s
discrimination complaint tracking system. We focused, instead, on ODEO’s conversion to a
new complaint tracking system. We limited our scope to presenting, not validating, ODEO’s
case processing statistics and ODEO’s perspective on the statistics.

To accomplish our objective, we:

•   Interviewed ODEO personnel responsible for the management of the FDIC’s discrimination
    complaint resolution program to identify their case load, problem areas, and/or suggestions
    for improvements. In addition, we interviewed OERM personnel and reviewed various
    OERM documents and prior OIG reports to determine the status of earlier corrective actions.
•   Assessed ODEO’s efforts to procure a new case tracking system (EEONet) to replace
    EEOMAS.
•   Interviewed DIT staff responsible for implementation of case tracking systems to replace
    EEOMAS regarding data from the EEOMAS legacy database, the process of implementing
    a new case tracking system, the timeline for the transition from EEOMAS to the
    implementation of EEONet, and the problems and costs associated with the transition from
    EEOMAS to a new discrimination complaint case tracking system.
•   Reviewed applicable EEOC regulations, FDIC directives, and ODEO policies and
    procedures. Documented the discrimination complaints process for both informal and formal
    discrimination complaints resolution, including time frames for completing the process, staff
    involved, and documents produced.
•   Reviewed EEOC federal sector reports on EEO complaints processing and appeals and
    EEOC’s Annual Report on the Federal Work Force for FYs 1996 through 2004 to assess the
    FDIC’s compliance with federal sector processing time frames in resolving discrimination
    complaints and to compare the FDIC’s processing time frames with federal sector averages.

Prior Evaluations and Reviews

On May 4, 1998, the OIG issued Evaluation Report No. 98-001, The Office of Diversity and
Economic Opportunity’s Discrimination Complaint Resolution Process and Caseload. We
reported noncompliance with EEOC complaint processing time frames and made several
recommendations to improve the FDIC’s discrimination complaint process.

On May 19, 2000, we issued Evaluation Memorandum No. 00-001, FDIC’s Equal Employment
Opportunity Complaint Process, jointly with the Office of Internal Control Management (now
OERM). The evaluation provided updated complaint processing statistics and a status of
ODEO’s efforts to implement our recommendations in Evaluation Report No. 98-001.

Reliance on Computer-based Systems, Compliance with Laws and Regulations,
Government Performance and Results Act, Fraud and Illegal Acts, and Internal
Control

We relied on ODEO reports to the EEOC and on statistics provided by the EEOC on the FDIC’s
compliance with federal sector processing time frames in resolving discrimination complaints.
We did not perform specific procedures to validate the reliability of data ODEO reported to the



                                               10
                                                                              Appendix I



EEOC. Further, due to the data reliability issues we identified, we did not evaluate ODEO’s
compliance with pertinent EEO laws and regulations associated with complaint resolution or
reporting requirements.

Consistent with the Government Performance and Results Act, ODEO has established goals
and objectives to measure and improve performance. Because our evaluation was re-focused
to address ODEO’s conversion to a new complaint tracking system, we did not evaluate the
adequacy or ODEO’s use of those goals and objectives.

The nature of our evaluation objectives did not require that we assess the potential for fraud and
illegal acts. However, throughout the evaluation, we were alert to the potential for fraud and
illegal acts, and no instances came to our attention.

We evaluated the effectiveness of management controls by reviewing policies and procedures
over the discrimination complaints process, organizational charts, and periodic OERM reviews
of the complaints process. Our report includes findings and recommendations related to
ensuring that ODEO has an effective case tracking system for managing the EEO complaint
case load.

We conducted our evaluation field work from May through August 2005 in accordance with
generally accepted government auditing standards.




                                               11
                                                                                         Appendix II



Overview of the Federal Sector Discrimination Complaint Process

                                              Occurrence



                                                 45 days



                                          Counselor Contact


                                                 30 days


                                          Notice of Right to File


                                                 15 days



                                        Formal Complaint Filed


                                                 180 days




                             •    Accept/Dismiss Determination Made
                             •    Complaint Investigated (Amended
                                  Complaints – Additional 180 days)
                             •    Report of Investigation Transmitted to
                                  Complainant.


                  Hearing Requested               30 days                  Hearing Not
                    Before EEOC                                             Requested


                       180 days


                  AJ Issues Findings                                           60 days
                   and Conclusions


                        45 days                   Final Agency
                                                 Decision (FAD)
    Complainant has 30 days                                                Complainant can file civil
    to file appeal with EEOC                                               action within 90 days of
    from a FAD dismissing the                                              FAD or EEO decision on
    complaint or deciding the                                              appeal or 180 calendar days
    complaint on merits.                                                   after filing a complaint.




                                                  12
Appendix III
     Appendix III




14
     Appendix III




15
     Appendix III




16
                                                                                                                               Appendix IV



Management Response to Recommendations
This table presents the management response to the recommendations in our report and the status of the recommendations as of
the date of report issuance.

                                                                                                                             Open
 Rec.                                                         Expected                Monetary          Resolved:a             or
Number            Corrective Action: Taken or               Completion Date           Benefits          Yes or No           Closedb
                        Planned/Status
           ODEO has developed a remediation plan to
    1      address the data reliability of the case
           tracking system. In Phase I of the
           remediation plan, ODEO contracted with HRT
           to identify necessary data fields left
           unpopulated by the data transferal process
           from EEOMAS to EEONet. Phase II is being          January 31, 2006              $0                Yes              Open
           completed in two parts based on the date that
           complaints were filed. Part A involved the
           input of data for complaints filed in FYs 2000
           – 2005, and Part B will be the input and
           verification of data for complaints filed in
           FYs 1995 – 1999.
           ODEO has requested that OERM conduct a
    2      follow-up review of ODEO compliance with
           case processing time frames, validate the        Scheduled to begin
           quality of the data in EEONet, and review the    mid-November 2005              $0                Yes              Open
           accuracy and integrity of reports.
a
  Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
              (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
              (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered
                  resolved as long as management provides an amount.
b
  Once the OIG determines that agreed-to corrective actions have been completed and are effective, the recommendation can be closed.




                                                                     17
